Final Audit Report No. AU01-004 (120000)
Home < Reports < Audit Reports    Legal Services Corporation Office of Inspector General
Review of Grantee's Transfer of Funds, and Compliance with Program Integrity Standards
Grantee: Pine Tree Legal Assistance, Inc.
Recipient No. 120000
Report No. AU01-004
Other formats: PDF 127K | Word 45K | Grantee's Comments: PDF 284K
August 2001
TABLE OF CONTENTS
RESULTS OF AUDIT
RECOMMENDATIONS
SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT
BACKGROUND
OBJECTIVES, SCOPE and METHODOLOGY
APPENDIX I - Listing of Findings and Associated Recommendations
APPENDIX II  Grantee's Comments on Draft Report
APPENDIX III - OIG Staff Responsible for the Audit and Report
RESULTS OF AUDIT
The Legal Services Corporation (LSC) Office of Inspector General (OIG)
conducted this audit to determine whether Pine Tree Legal Assistance (PTLA or
"grantee") was in compliance with certain requirements of 45 CFR Part 1610.  This
regulation prohibits grantees from transferring LSC funds to an organization that
engages in activities prohibited by the LSC Act and LSC appropriation acts, with one
exception.  The only exception is that LSC funds may be used to fund private attorney
involvement (PAI) activities that an organization performs for the grantee.  In addition,
grantees must maintain objective integrity and independence from organizations that
engage in restricted activities.
This audit provides reasonable, but not absolute, assurances that PTLA
complied with Part 1610 between July 1, 1999 and May 31, 2001, the period covered by
our review.  During this time period, the grantee was not involved with organizations that
engaged in restricted activities and LSC funds were not transferred to other legal
organizations.
Although we found no problems with the grantee's compliance with the program
integrity standard, improvements are needed in two related areas.  First, the grantee did
not ensure that part-time advocates reported their outside employment and certified as
required by 45 CFR Part 1635.  Second, some cases filed in state district courts were
not reported to LSC as required by 45 CFR Part 1644.
No Certifications for Some Part time Advocates
Six part time advocates did not document whether they were employed by
another legal organization.  As a result, PTLA did not have certifications for these part-
time advocates and therefore did not satisfy the requirements of 45 CFR Part 1635.
This regulation requires LSC grantees to maintain certifications for part time
advocates who also work for organizations that engage in restricted activities.  The
advocates are required to certify that they did not work on prohibited activities while
being paid with LSC funds.  These certifications are to be made quarterly and
maintained by the grantee.
The grantee has a process for identifying part-time advocates who are employed
by organizations engaged in restricted activities.  At the end of each quarter the part-
time advocates are sent a notice informing them that certifications are due.  Those not
employed outside of PTLA respond via e-mail that they have no outside employment.
Part time attorneys and paralegals with outside employment are required to certify in
writing that they have not engaged in prohibited activities while paid with LSC funds.  No
evidence came to our attention that any grantee attorney or paralegal engaged in
restricted activity during any time for which he/she was compensated by the grantee or
used grantee resources for restricted activities.  However, the OIG identified instances
for which no determination by the grantee was made as to whether the part-time
advocate was involved in outside employment.
Six part-time advocates did not respond to requests for information on
employment with other organizations.  They provided neither a statement that they had
no outside employment nor the required certification.  Most of the problem occurred for
the fourth quarter of 2000 when five part-time advocates did not provide a certification
or an e-mail indicating they did not have other employment. Although the required
certifications and e-mails were not prepared, we found no evidence that the advocates
engaged in restricted activity while paid by the grantee or used grantee resources for
restricted activities.
Grantee management stated that the lack of documentation was an unintentional
oversight by the part-time advocates.  We noted, however, that PTLA does not have
procedures to ensure that part-time advocates provide the required documentation on
other employment.  At the conclusion of the audit fieldwork, the grantee was trying to
obtain certifications or statements that the part-time advocates were not employed by
another organization.
PTLA needs to implement a follow-up tracking system to ensure that all part-
time advocates acknowledge whether they are also employed by an organization that
engages in restricted activities and that they provide certifications when required.
Court Cases Not Reported To LSC
PTLA did not report to LSC all the cases it filed in court as required by 45 CFR
Part 1644.  For calendar year 2000, PTLA reported that 25 cases were filed in the state
district courts located in Portland, Bangor and Machias.  Seven additional cases were
not reported.
Part 1644 of the regulations requires grantees to report to LSC each case it filed
in a court.  This requirement applies to all filed cases including those not funded by
LSC.  The information, including the name of each party to the case and the cause of
action, must be submitted to LSC in semiannual reports for the periods ended June 30th
and December 31st of each year.  Grantees are required to adopt written policies and
procedures to implement this regulation.
PTLA has unwritten procedures for meeting the reporting requirement.  The
attorneys who file the cases are responsible for providing the case information to the
main office where the information is recorded on a Semiannual Case Disclosure form
and reported to LSC.
These procedures were not followed for the seven unreported cases and the
required information was not recorded on the Semiannual Case Disclosure form.
Grantee management agreed and explained that the unreported cases were
unintentional oversights by the individual attorneys.
PTLA should adopt formal written policies and procedures to ensure that it
complies with 45 CFR Part 1644.  The written procedures should establish a systematic
process for the collection and reporting of case disclosure information.  The Executive
Director, or a designated management official, should review the Case Disclosure
Report prior to its submission to LSC.  In addition, PTLA's full and part-time attorneys
should be reminded of the case disclosure requirements and their reporting
responsibilities.
RECOMMENDATIONS
We recommend that PTLA management:
Implement a tracking system to ensure that all part-time advocates acknowledge
whether or not they are employed by an organization that does restricted
activities and that required certifications are provided.
Adopt formal, written policies and procedures to implement the case reporting
requirements of 45 CFR 1644.
Formally remind PTLA attorneys of their responsibilities for reporting case
disclosure information.
SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT
The grantee's comments indicated agreement with the audit's findings and
recommendations and discussed the action taken to implement each recommendation.
The grantee commented on a perceived error in the draft report concerning the
number of docketed cases reported to LSC for calendar year 2000.  The grantee stated
that it reported 68 cases for the year 2000, as opposed to the 25 cases identified in the
draft report.
The grantee's comments are in Appendix II.
OIG RESPONSE TO GRANTEE COMMENTS
Records provided by LSC management indicate that the grantee reported 58
docketed cases for calendar year 2000. These cases were filed in 20 state and federal
courts located throughout the state of Maine.  Our review only covered cases docketed
in the state district courts located in Portland, Bangor and Machias.  As stated on page
2 of the report, the grantee reported that 25 cases were docketed in these three courts.
Therefore, we did not modify the report.
BACKGROUND
PTLA is a nonprofit corporation established to provide legal services to indigent
individuals who meet eligibility guidelines.  Its priorities include housing, family, and
public benefits.  The grantee is headquartered in Portland, Maine, and maintains four
branch offices throughout the state.  It is staffed with 24 attorneys, 15 paralegals, and
13 other employees, who assist case handlers and provide administrative support
services.  PTLA received total funding of over $3.08 million during their most recent
fiscal year, which ended December 31, 2000.  LSC provided in excess of $1.1 million or
about 36 percent of the total funds received by PTLA during that year.
Grantees are prohibited from transferring LSC funds to another person or
organization that engages in restricted activities except when the transfer is for funding
PAI activities.  In these instances the prohibitions apply only to the LSC funds that were
transferred to the person or entity performing within the PAI program.  Grantees must
also maintain objective integrity and independence from organizations that engage in
restricted activities.
OBJECTIVES, SCOPE, AND METHODOLOGY
This audit assessed whether PTLA complied with requirements established in 45
CFR Part 1610 relating to the transfer of funds to other organizations and program
integrity standards.
Our review covered the period July 1, 1999 through May 31, 2001.  The OIG
began this audit work in May 2001 and visited PTLA in Portland, Maine, between June 4
and June 14, 2001.  At LSC headquarters in Washington, DC, we reviewed materials
pertaining to PTLA including its Certifications of Program Integrity, audited financial
statements, grant proposals, and recipient profile.  OIG staff discussed issues relating to
PTLA with LSC management officials.
During the on-site visit, the OIG interviewed and collected information from the
Executive Director, Assistant Director, Directors of Training and Litigation, attorneys,
paralegals, Fiscal Manager, and other staff.  We visited the PTLA branch offices located
in Augusta and Bangor.  We ascertained whether PTLA employees were generally
knowledgeable regarding the guidelines set forth in Part 1610.  The audit included an
assessment of PTLA policies and procedures applicable to the transfer of funds to other
organizations and program integrity requirements.
The OIG gained an understanding of the client intake process utilized by PTLA
and its pro bono component, Volunteer Lawyers Project.  Pleadings from selected
cases were reviewed to verify that the case activity was not a restrictive or prohibited
activity.
The OIG reviewed the grantee's financial accounts for vendors including
organizations, contractors, employees, and former employees.  From the 564 vendors
identified in PTLA's Master Vendor List, we judgmentally selected 42 vendors to
examine individual transactions.  PTLA completed transactions with 37 of the 42
vendors during our period of review.  We reviewed 156 of these transactions, totaling
almost $84,000.  Most accounts were reviewed in their entirety.  Some accounts were
judgmentally tested due to time constraints.
The OIG assessed the process used by PTLA to allocate direct and indirect costs
to LSC and non-LSC funds.  Policies and procedures relating to payroll and timekeeping
were evaluated.  Attorneys and paralegals at PTLA were interviewed to determine their
understanding as to which fund they should charge their time relative to case handling.
All agreements between PTLA and other organizations and individuals were
requested.  The OIG reviewed all materials provided including grant funding
instruments, leases, contracts, and co-counsel arrangements.  The OIG identified the
grantee's controls applicable to monitoring pro bono attorneys under its PAI program,
the Volunteer Lawyers Project.
We performed this audit in accordance with Government Auditing Standards
(1994 revision) established by the Comptroller General of the United States and under
authority of the Inspector General Act of 1978, as amended and Public Law 105-277,
incorporating by reference Public Law 104-134, §509(g).
APPENDIX I
LISTING OF FINDING AND ASSOCIATED RECOMMENDATIONS
No Certifications for some part time advocates (page 1). Recommendation #1
Case Disclosure Forms did not report all cases filed (page 2).	Recommendations # 2,3
APPENDIX II
GRANTEES COMMENTS ON DRAFT REPORT
Download PDF file: 912000a2.pdf 284K.
APPENDIX III
OIG STAFF RESPONSIBLE FOR THE AUDIT AND THE REPORT
Anthony M. Ramirez (Auditor-in-charge)
David Young
Abel Ortunio
URL: http://oig.lsc.gov/reports/01004/120000.htm